No. 19-1254
IN THE
SUPREME COURT OF THE UNITED STATES
COMMONWEALTH OF PENNSYLVANIA,

v.
JOSEPH J. DAVIS,

Petitioner

Respondent

ON PETITION FOR WRIT OF CERTIORARI TO THE
SUPREME COURT OF PENNSYLVANIA
REPLY BRIEF FOR PETITIONER
JOSH SHAPIRO

Attorney General
Commonwealth of Pennsylvania
JAMES BARKER
Chief Deputy Attorney General
Appeals & Legal Services Section
WILLIAM R. STOYCOS *
Senior Deputy Attorney General
Counsel of Record
Office of Attorney General
16th Floor, Strawberry Square
Harrisburg, PA 17120
(717) 787-6348

QUESTIONS PRESENTED
For more than forty years, courts have
allowed law enforcement authorities to compel
an individual to disclose information when the
information adds little or nothing to the sum
total of information already possessed by the
government and is a foregone conclusion.
During that same time, advances in technology
have changed the ways information may be
stored to include electronic media as opposed to
paper documents, which were the exclusive
manner of keeping business records in former
days. Concurrent with the development of
electronic media has been the creation of the
means of making information inaccessible
through virtually unbreakable encryption
technology. Both developments have given rise
to criminal activity that takes advantage of new
technology and an urgent need for law
enforcement to access data and information
kept beyond its lawful reach by the encryption
technology. This Court has not considered the
foregone conclusion doctrine in the context of
electronic media and encryption.
1. Does the foregone conclusion exception to
the Fifth Amendment privilege against selfincrimination established in Fisher v. United
States, 425 U.S. 391 (1976) and its progeny
apply to the compelled production of passwords
to encrypted electronic devices when the
government has seized a device pursuant to a
valid search warrant and has independent
knowledge that the password exists, is known
i

by the suspect, and will decrypt the device,
such that the compelled information itself lacks
testimonial significance and any testimony
implied by the compelled act is already known
by the government, not in issue, and adds little
or nothing to the sum total of the government’s
information?
2. Assuming the foregone conclusion exception
applies, what is the government’s burden of
proof to support the exception, and more
specifically, must the government demonstrate
knowledge relating solely to the password
sought or must it also demonstrate knowledge
of the contents of the encrypted device for
which a judge has already authorized a search?

ii

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ......................................... i
TABLE OF CONTENTSError!
defined.iii

Bookmark

not

TABLE OF CITED AUTHORITIES ........................... iv
ARGUMENT IN REPLY TO PETITIONER’S BRIEF
IN OPPOSITION ..........................................................1
A.

RESPONDENT'S ARGUMENT THAT THE
SUPREME
COURT
OF
PENNSYLVANIA'S
DECISION DOES NOT CONFLICT WITH THE
DECISION OF ANOTHER STATE COURT OF
LAST RESORT IS FALSE……………………………..1

CONCLUSION ............................................................10

iii

TABLE OF CITED AUTHORITIES
Page
Cases

Doe v. United States, 108 S.Ct. 2341 (1988)………….3
Fisher v. United States, 425 U.S. 391 (1976)………....3
State v. Andrews, 2020 WL 4577172 (N.J. Aug. 10,
2020)……….…………………………………………passim

United States v. Doe, 465 U.S. 605 (1984)……….…..3
United States v. Hubble, 120 S.Ct. 2037 (2000)….….3
Wilson v. United States, 221 U.S. 361 (1911)………..2

iv

ARGUMENT IN REPLY TO PETITIONER’S
BRIEF IN OPPOSITION1
A. Respondent’s argument that the Pennsylvania
Supreme Court’s decision does not conflict with the
decision of another state court of last resort is false.
On August 10, 2020, Respondents’ argument in
opposition to the Petition for Writ of Certiorari -- that
the Pennsylvania Supreme Court’s majority decision
does not conflict with the decision of another state
court of last resort -- was obliterated. On that date,
the Supreme Court of New Jersey held in a 4-3
decision that when the government has seized
encrypted cellphones pursuant to a valid search
warrant and has independent knowledge that
decryption passcodes exist, are known and possessed
by the suspect, and will decrypt the devices, the
foregone conclusion exception to the Fifth Amendment
privilege against self-incrimination applies and a
court order compelling the suspect to produce the
passcodes to the government does not violate the Fifth
Amendment. This determination directly conflicts
with the Supreme Court of Pennsylvania’s majority
Opinion, which held precisely the opposite.
In State v. Andrews, 2020 WL 4577172 (N.J. Aug.
10, 2020), the Supreme Court of New Jersey was
confronted with the virtually identical scenario
presented to the Pennsylvania Supreme Court,
namely the defendant was charged with criminal
offenses and ordered to produce to the government the
Petitioner apologizes for the delayed filing of its
reply brief, which was caused in large part by
complications arising out of the Covid-19 pandemic.
1

1

passcodes to his two cellphones that were seized
pursuant to a lawful warrant. The defendant, a police
officer criminally charged for assisting the subject of a
law enforcement investigation in order that the
suspect avoid detection, objected to the order
compelling the act of production, claiming that it
violated his federal right against self-incrimination
because: (1) it required him to utilize the contents of
his mind to communicate information to law
enforcement that might lead to the discovery of
incriminating evidence; (2) the foregone conclusion
exception to the act of production doctrine established
by the United States Supreme Court does not apply
outside the context of paper documents; and (3) the
government had failed to establish that it had
particularized knowledge of the contents of his
cellphones as opposed to the passcodes.
Following a thorough review of the record facts
and the relevant federal and state legal authorities,
including the decisions of this Court, that in any way
touched upon the question presented, the Supreme
Court of New Jersey rejected the defendant’s
contentions and affirmed the order compelling him to
produce the passcodes to his cellphones.
Following a thoughtful analysis of this Court’s
existing precedent on the act of production doctrine
and the foregone conclusion exception thereto,2 the
Among other authorities, the Court discussed Wilson
v. United States, 221 U.S. 361, 386 (1911) (upholding
contempt finding against corporate officer who failed
to comply with grand jury subpoena compelling
disclosure of potentially incriminating corporate
records in his possession, explaining that “the fact of
2

2

actual possession or of lawful custody would not
justify the officer in resisting inspecting, even though
the record was made by himself and would supply the
evidence of his criminal dereliction”); Fisher v. United
States, 425 U.S. 391, 411 (1976) (emphasis added)
(quotation marks omitted) (“It is doubtful that
implicitly admitting the existence and possession of
the papers rises to the level of testimony within the
protection of the Fifth Amendment. ... The existence
and location of the papers are a foregone conclusion
and the taxpayer adds little or nothing to the sum
total of the Government's information by conceding
that he in fact has the papers. Under these
circumstances…no constitutional rights are touched.
The question is not of testimony but of surrender”);
United States v. Doe, 465 U.S. 605 (1984) (“Doe I”)
(finding that a valid claim of the privilege against selfincrimination had been asserted which the
government could rebut by producing evidence that
possession, existence, and authentication were a
“foregone conclusion” but in this case failed to do;
finding significant that the respondent did not
concede in the lower court that the records listed in
the subpoena actually existed or were in his
possession ); Doe v. United States, 108 S.Ct. 2341,
2350 (1988) (“Doe II”) (“consistent with the Fifth
Amendment, individuals may be compelled to execute
an authorization directing a foreign bank to disclose
account records because neither the form nor its
execution communicates any factual assertions or
conveys any information to the government); United
States v. Hubble, 120 S.Ct. 2037, 2045-46 (2000)
(“[t]he ‘compelled testimony’ that is relevant in this
case is not to be found in the contents of the
documents
produced
in
response
to
the
3

Supreme Court of New Jersey summarized the
current state of this Court’s jurisprudence:
From those cases…the following
principles can be inferred: For purposes
of the Fifth Amendment privilege against
self-incrimination, the act of production
must be considered in its own right,
separate from the documents sought.
And even production that is of a
testimonial nature can be compelled if
the Government can demonstrate it
already knows the information that act
will reveal -- if, in other words, the
existence of the requested documents,
their authenticity, and the defendant's
possession of and control over them -- are
a “foregone conclusion.”

subpoena…[but] rather, the testimony inherent in the
act of producing those documents” and “the
testimonial aspect of a response to a subpoena duces
tecum does nothing more than establish the existence,
authenticity, and custody of items that are produced;”
concluding that the government had failed to
demonstrate any independent knowledge of that
information).

4

Andrews, 2020 WL 4577172, at *13 (emphasis in
original).
The Supreme Court of New Jersey found that a
cellphone's passcode is analogous to the combination
to a safe and that communicating or entering a
passcode requires facts contained within the holder's
mind and is a testimonial act of production. However,
it continued:
The inquiry does not end there,
however, because, if the foregone
conclusion exception applies, production
of the passcodes may still be compelled.
To
determine
the
exception's
applicability, we must first determine to
what it might apply -- the act of
producing the passcodes, or the act of
producing the cellphones’ contents
through the passcodes. To be consistent
with the Supreme Court case law that
gave rise to the exception, we find that

the foregone conclusion test applies to
the production of the passcodes
themselves, rather than to the phones’
contents.

The relevant Supreme Court cases
explicitly predicate the applicability of
the foregone conclusion doctrine on the
fundamental distinction between the act
of production and the documents to be
produced. The documents may be
entitled to no Fifth Amendment
protection at all -- and, indeed, they were
not so entitled in Fisher -- but the act of
5

producing them may nevertheless be
protected.

Id. at *17 (emphasis added).
This determination that the foregone conclusion
exception applies to the production of the passcodes
rather than to the phones’ contents directly conflicts
with the majority’s determination in Davis.
The Supreme Court of New Jersey also expressed
disagreement with the Davis majority’s decision to
import Fourth Amendment privacy principles into
what is properly a Fifth Amendment analysis, noting
that this Court in Fisher rejected such importation
when it rejected “the rule against compelling
production of private papers” previously established
in Boyd v. United States, 116 U.S. 616 (1886) which
rested on the proposition that seizures of or
subpoenas for “mere evidence” violated the Fourth
Amendment and therefore also transgressed the Fifth.
Id. The Court held that:
In light of the stark distinction the
[United States Supreme] Court has
drawn between the evidentiary object
and its production -- a division reinforced
even in those cases where the foregone
conclusion exception was held not to
apply -- it is problematic to meld the
production of passcodes with the act of
producing the contents of the phones. As
the Davis dissent observed, that
approach imports Fourth Amendment
privacy
principles
into
a
Fifth
Amendment inquiry.
6

***
…We agree with the Davis dissent
that the proper focus here is on the Fifth
Amendment and that the Fourth
Amendment's privacy protections should
not factor into analysis of the Fifth
Amendment's applicability.

Id.
Ultimately, the Supreme Court of New Jersey
affirmed the trial court’s order compelling production
of the passcodes based on an interpretation of this
Court’s precedent that directly contradicts the
reasoning of the Supreme Court of Pennsylvania
majority opinion in Davis:
In sum, we view the compelled act
of production in this case to be that of
producing the passcodes. Although that
act of production is testimonial, we note
that passcodes are a series of characters
without
independent
evidentiary
significance and are therefore of
“minimal testimonial value” – their value
is limited to communicating the
knowledge of the passcodes. Thus,
although the act of producing the
passcodes is presumptively protected by
the Fifth Amendment, its testimonial
value and constitutional protection may
be overcome if the passcodes’ existence,
possession, and authentication are
foregone conclusions.
7

Based on the record before us, we
have little difficulty concluding that
compelled production of the passcodes
falls within the foregone conclusion
exception. The State established that the
passcodes exist – they determined the
cellphones’ contents are passcodeprotected. Also, the trial court record
reveals that the cellphones were in
Andrews’s possession when seized and
that he owned and operated the
cellphones, establishing his knowledge of
the passcodes and that the passcodes
enable access to the cellphones’ contents.
Finally, to the extent that authentication
is an issue in this context, the passcodes
self-authenticate by providing access to
the cellphones’ contents.

The State’s demonstration of the
passcodes’ existence, Andrews’s previous
possession and operation of the
cellphones, and the passcodes’ selfauthenticating nature render the issue
here one of surrender, not testimony, and
the foregone conclusion exception to the
Fifth Amendment privilege against selfincrimination thus applies. Therefore,
the Fifth Amendment does not protect
Andrews from compelled disclosure of
the passcodes to his cellphones.
Id. at *18 (emphasis added) (citations and footnotes
omitted).
8

In light of the foregoing, Respondent’s
argument to this Court in opposition to the
Petition for Writ of Certiorari has been
conclusively refuted. The Supreme Court of

Pennsylvania has decided an important federal
question in a way that directly conflicts with
the decision of the Supreme Court of New
Jersey on the same federal question. The
confusion arising out of these starkly
conflicting decisions as well as disparate and
inconsistent decisions of other state and federal
appellate courts regarding the applicability of
the foregone conclusion doctrine in the context
of compelled production of passwords to
encrypted electronic devices is bound to grow
exponentially with the passage of time. This is
due to the ubiquitous nature of electronic
communication and storage devices and the
increasing
frequency
with
which
law
enforcement agencies are confronted with
emerging digital technologies that prevent
them from conducting lawful searches that are
critically important to the public’s paramount
interest in law enforcement and public safety.
This Honorable Court’s guidance on this
subject and clarification regarding how the
relevant Fifth Amendment principles apply in
this context is desperately needed.

9

CONCLUSION
The Court should grant the petition.
Respectfully submitted,
JOSH SHAPIRO
Attorney General
Commonwealth of Pennsylvania
JAMES BARKER
Chief Deputy Attorney General
Appeals & Legal Services Section
WILLIAM R. STOYCOS *
Senior Deputy Attorney General
Counsel of Record
Office of Attorney General
16th Floor, Strawberry Square
Harrisburg, PA 17120
(717) 787-6348
Counsel for Petitioner
Date: September 20, 2012

10

